      ,..               ~~~~~~ ~~~~~


 Deparment of. Health and Human Services

                     OFFICE
     INSPECTOR GENERAL





EXTENT OF UNRECOVERED MEDICARE

    SECONDARY PAYER FUNDS





            " "ov





               J!L



             t4-Yd:lO
                          AUGUST 1991
                           OFFICE OF INSPECTOR GENERAL

 The mission of the Offce of Inspector Genera (OIG), as mandated by Public Law 95-452, as
 amended, is to protect the integrty of the Depanment of Health and Human Services ' (HS)
 programs as well as the health and welfare of beneficiares served by those progrs. This
 statutory mission is cared out through a nationwide network of audits, investigations, and
 inspections conducted by three OIG operating components: the Office of Audit Services, the
 Office of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs the
 Secretary of HHS of program and management problems and recommends courses to correct
 them.

                              OFFICE OF AUDIT SERVICES
 The OIG' s Office of Audit Services (OAS) provides all auditing services for HHS, either by
 conducting audits with its own audit resources or by overseeing audit work done by others.
 Audits examine the performance of HHS programs and/or its grantees and contractors in
 caring out their respective responsibilities and ar intended to provide independent
 assessments of HHS programs and operations in order to reduce waste, abuse, and
 mismanagement and to promote economy and effciency throughout the Deparent

                              OFFICE OF INVESTIGATIONS
The OIG' s Office of Investigations (01) conducts crminal, civil , and admnistrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and of
unjust enrichment by providers. The investigative efforts of 01 lead to crminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecUte frud and patient abuse in the Medicaid program.

                    OFFICE OF EVALUATION AND INSPECTIONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Deparent, the
Congress , and the public. The findings and recommendations contaned in these inspection
reports generate rapid , accurate , and up-to- date information on the effciency, vulnerability, and
effectiveness of depanmental programs.

This report was prepared in the Kansas City Regional Offce under the direction of Don
McLaughlin , Regional Inspector General , and James H. Wolf, Deputy Regional Inspector
General. Project Staff:

Hugh Owens, 
    Project Leader                Tom Noplock Headquarters
Doris Phillips                                 Bar         Headquarters
                                                         Steeley,

Julie Quirin                                               Headquarters
                                               Mark Krshat, 


Perry Seaton                                   Linda Moscow Headquarters
         ;. 
  :::




 Department of                      Health and Human Services
                             OFFICE
     INSPECTOR GENERAL





EXTENT OF UNRECOVERED MEDICARE

    SECONDARY PAYER FUNDS





                           tRVICES'



                                      Richard P. Kusserow
                                      INSPECTOR GENERAL
          '0


                     lt
                          4-Yd:lO
                                         OEI- 07-90- 00760
                                                              - p
-"'. ---




                     EXECUTIVE SUMMARY

PURPOSE

To determine the extent of the unrecovered funds related to Medcar seconda payer (MSP)
provisions and to identify varous options to prevent Medicare progr losses due to
unidentified primary insurance sources. This report finalizes preliminar findings and
recommendations made in a management advisory report (OEI- 07- 90- 00764) issued in June
1990.


BACKGROUND

Congress passed a series of statutory provisions between 1980 and 1986, which made certn
other insurers primar to Medicar. These insurers became       priarfor beneficiares insured by
employer group health plans (EGHPs), automobile medical, no-fault, and liabilty insurance as
well as for end-stage renal disease.

This inspection relates to the Secreta s goal of enhancing the effectiveness of Medicar
reimbursement through assuring that Medicar reimbursement is seconda to other insurance.


METHODOLOGY

We selected a sample of all beneficiares who received services in 1987. We contacted a
sub-sample of this group about their medical insurce coverage and about any accidents in
which they may have been involved. Almost 73 percent of the beneficiares responded.


FINDINGS

        Although the Health Care Financing Administration (HCFA) has made extensive efforts to
        identify MSP situations, we found significant overpayments totaling over $637 million in
        1988.

We identified overpayments of $60, 502 in our sample which projects to a loss of over $637
milion in 1988 to the Medicare program.

        Targeting working spouses and disabled can increase the cost effectiveness of MSP efforts.

The overall cost to benefit ratio in this study was 5.4 to 1. However, the cost- benefit ratio for
developing spousal insurance cases was 10. 2 to 1 and the cost- benefit ratio for developing
disability cases was 11. 0 to 1.
                                                                       -_.   .-.------------- --




RECOMMENDATIONS

The HCFA should take action to prevent Medicare progr losses due to unidentified primar
insurers. This can be accomplished in a varety of ways. Among them ar:

         Revise all Medicare cla m forms to require spousal insurance information before claims
         can be paid.

         Proritize the information received from IRS and SSA according to those areas with the
         greatest cost- benefit ratio.

         Propose legislation to establish a Voluntar Disclosure and Recovery Program.

         Establish a national data system containing priar insurance information on all Medicare
         beneficiares and their spouses.

         Propose legislation to require Medicare contractors to match their private health insurnce
         records with Medicare fies.

         Propose legislation to require all insurers to provide their private health insurance data,
         including eligibilty and claims payment information, to HCFA.


         Recommend to Congress that section 6202 of Public Law 101-239 (as amended by Public
         Law 101- 508) be extended beyond the statute s termnation date of September 30, 1995
         until legislation is enacted requiring diect employer reportng.


AGENCY         COMMENTS

The HCFA commented on an earlier version of this report. They were general y in agrement
with the recommendations, except for the matching of contrctor private health insurance
records with Medicare fies. We continue to believe that the matching of records is an importt
fiduciar responsibility of Medicare contractors who should reference all sources of information
to identify primar payer sources.
                       ................................................
                                            ............ .......... ..........
                                                                      ..--_-
                       ................................................
                       ....................................  ............       ....................
                                                                         ..............
                                                                            ......     - ........
                                                                                   ................
                                                                                ........
                                                                            ....----      ...... ......
                                                                           ....................
                                                                            ............                 .....................................
                                                                                     -............................
                                                                                                      ......         .........................
                                                                                                    ....................  ..............
                                                                            ........................................................
                                                                                                             ..............
                                                                                                   ....................                  .......
                                                                                                                                           ..
                                                                                                                            ...... .............
                                                                                                                          ................




                        TABLE OF CONTENTS


EXECUTIVE SUMMARY

INTRODUCTION.................................................................................. ....................


       PURPOSE.................................... .................. 


       BA CK G ROUND................................ ...................... ..........................................


       METH 0 DO LOG Y.................... ............ 


FIND IN G S .................................................................................................................. 3

RECO MMEND A TIO NS .. .............. ...... ......

A G EN CY COMMENTS..

APPENDIX A .......................................... .............. ...................... .............. .......... .. A­

APPENDIX B

APPENDIX C                                                                               ............................................. C­

APPENDIX D                                                                                             ................................ D­

APPENDIX E




                                                                _n_
                              INTRODUCTION

PURPOSE

To determine the extent of the unrecovered funds related to Medcar seconda payer (MSP)
provisions and the varous options available to the Health Care Financing Admnistrtion
(HCFA) to prevent losses to the Medicar program due to unidentified primar insurance
sources. This report finalizes preliminar findings and recommendations made in a maagement
advisory report (OEI- 07-90- 00764) released to HCFA in June 1990.


BACKGROUND

Title XVIII of the Social Security Act (42 USC 1395), enacte in 1965, established the Medicare
program to pay for health care services for eligible beneficiares age 65 and older. Also,
beneficiares are covered who were disabled and those with end-stage renal disease (ESRD).

Until 1980, Medicare was primar payer for all health care costs (less co-pay and deductibles)
for these beneficiares. Concurrent coverage by other payers was considered seconda. The
only exceptions to this rule were services covered by workers ' compensation and services by
other Federal programs, such as the Veterans Administration.

Growing concern for rising Medicare progr costs influenced Congrss to pass a series of
statutory provisions durig the period betWeen 1980 and 1986. (See Appendix A. ) These
provisions require certain private insurers to pay medcal claims before Medcare if the aged or
disabled beneficiar has other health insurce coverage by an employer group health plan
(EGHP) or by the spouse s EGHP. Medicar is also secondar payer if the beneficiar has an
accident and is covered by automobile medical, no-fault, or liabilty insurance. Another
statutory provision made Medicare the secondar payer for items and services furnished to
ESRD beneficiares who are covered under EGHPs during a specified period of up to 12 months.

In general , providers are required to bil          first when a beneficiar falls within one
                                             other insurers
of these categories. Medicare pays any remaining amounts for which it may be responsible.

The HCFA is responsible for ensuring contractors comply with Medicare legislation and
regulations. Further, HCFA provides contracto s with procedures and instrctions concerning
the identification of MSP situations and recovery of inappropriate payments. As pan of their
fiduciary responsibilty, contractors should identify and record information for beneficiares
having primar medical insurance coverage.

Medicare contractors were budgeted approximately $115 millon for administration of MSP
provisions in the law during Fiscal Years (FYs) 1987 and 1988. The data from HCFA shows
MSP savings to be $3. 3 bilion ($1. 1 bilion for Pan A and $.3 bilion for Pan B for FY 1987 and
$1.4 bilion for Pan A and $. 5 bilion for Pan B in FY 1988). However, diffculties in de!ecting .
primar payment    sources stil exist which result in substantial losses to Medicare. Despite
current procedures for HCFA' s educational and outreach programs, Offce of Inspector General
(OIG) inspections and audits, Genera Accounting Offce (GAO) audits, and HCFA pilot studies
have confirmed that additional savings and recoveries ar possible. These prior inspections and
studies claim estimates of progrm losses raging from $300 million to $900 millon each year.

Recently, congrssional hearngs, GAO audits, and media attention have focused on report of
unrealized savings. In addition, lawsuits under Qui Tam provisions of the False Claims Act and
Deparent of Justice actions have brought the MSP issue to the forefront.


METHODOLOGY

We selected a simple random sample from al beneficiares who received services in 1987, which
resulted in identifying over 350, 00 beneficiares. Next, we took a sub-sample of this group,
using sequential sampling, which identified over 6, 700 beneficiares. We deleted  the
categories in the sub-sample: Railroad Retirement beneficiares, dece sed beneficiares, and
those beneficiares with non-matching Health Insurace claim numbers. These groups were
dropped because suffcient data was not available to include them in our sample.

After the categories mentioned above were dropped, this left over 4 300 beneficiares in our
sub-sample. We attempted to contact the beneficiares about their medical insurace coverage
and any accidents in which they may have been involved. Almost 73 percent of the beneficiares
responded. More detailed information on the sample selection process is given in the surey
methodology section of Appendix B.
                                    FINDINGS

The following findings are based on an analysis of the 34 conflIed overpayment cases. Each
case may be included in one or more of the analysis categories. These categories are not
mutually exclusive.

     Although RCF A has made extensive efforts to identify MSP situations, we found
     signifcant overpayments totaling over $637 milion in 1988.

Our total overpayment projects to an estimated loss to the Medicar program of over $637
million in Calendar Year 1988. (See Appendix B.) The completed analysis identified prima
insurance coverage on 34 beneficiares (33 EGHP and 1 accident) out of the 3, 185 beneficiares
or about 1 percent of those who responded. (See Appendix C.) We identified $4 744 paid by
Medicare in the accident liabilty case for which a third-par payer had responsibilty for
payment. This amount represents 8 percent of the tota overpayment identified. We established
an actual loss to the Medicare progr of $60, 502, of which Pan A payments totaed $29, 695
and Pan B $30, 807.

We found that over $583.3 millon of the projected loss to the Medcar program was due to
unidentified spousal insurance coverage. Twenty-five of the 33 beneficiares (76 percent) with
EGHP coverage had unidentified primar insurance coverage through their working spouses.
Included in the 25 cases were eight disabilty cases. Of the $60, 502 identified, a total of $54 294
was due to this coverage. This was alost 90 percent of the tota identified overpayments.

We project an annual loss for unidentifed disabled beneficiares of over $265 milion.

Nine of the 33 beneficiares (27 percent) with an EGHP received Medicar coverage because of

a disabling condition and accounted for over 47 percent or $28, 393 of the total overpayment.

Eight of the disabled beneficiares were insured through their spouses ' EGHP and one

beneficiar through his own EGHP.


We project an annual loss of almost $16. 5 millon for unidentified coverage of the workig
beneficiar. Seven of these 33 beneficiares (21 percent) had unidentified EGHP coverage
through their own employer. This includes one disabled beneficiar. These working
beneficiares accounted for 2 percent or $1, 449 of the total overpayment.

We found that Medicare contractors are not coordinating with their private insurance operations.
Medicare paid as the primar payer in eight cases when the beneficiar had primar payer
coverage through an EGHP administered by the contractor s private business operation. Three
of the cases had identifying information in the fie that there was other insurance. The other five
cases did not have other insurance information in the file because the claims were submitted
electronically.
                                    OVERPAYMENTS
                                      by Case Category




          Working Spouses

                  90%



                                                                 Accident
                                                                Wkg Beneficiaries




                                       Calendar Year 1988





      Targeting working spouses and disabled can increase the cost effectiveness of MSP
      efforts.

We identified administrative costs accrued by the OIG to detect and develop unidentified
priar insurance coverage for the sampled beneficiares. When compared to the progr loss,
based upon identified prima insurance coverage, the overall cost to benefit ratio was 5.4 to 1.
However, the cost effectiveness of developing insurance information for those respondents who
reported that their spouse was insured increased to 10. 2 to 1. The development of insurce
information concerning disabled individuals had an even higher cost to benefit ratio of 11.0 to
(See Appendix D. ) The increased ratio equates to a higher overpayment identified for the
spousal and disability cases.
                        RECOMMENDATIONS

The HCFA should take action to prevent Medicare program losses due to unidntified primary
insurers. This can be   accomplished in a variety of ways. Among them are:

     Revise all Medicare claims forms to require spousal insurance information      before
     claims can be paid.

      We suggest that the following information be obtained as pan of the application:


          Is the beneficiar covered by an EGHP though his or her own employer or the em­
          ployer of the spouse?

           If yes, enter the name and Social Security number of the person working, the name of
           the employer, and name of the insurance company.

     Prioritize the information received from IRS and SSA according to those areas with the
     greatest cost-benefit   rati.


      Section 6202(a) of OBRA of 1989 (Public Law 101- 239) established a systematic process
      of providig MSP information to HCFA. The Act provides that the IRS wil fursh spou­
      sal information on any Medicare beneficiares identified by SSA. The SSA wil furish
      wage information on Medicar beneficiares and their spouses to HCFA.

      The cost- benefit ratio of developing cases involving the working spouse covere by an
      EGHP is considerably more than for working beneficiares covered by an EGHP. This
      provides justification that initial efforts should develop those cases with indications of a
      working spouse. In our sample, 25 out of 33 EGHP overpayment cases involved working
      spouses, which produced our largest porton of the overpayment. .

     Propose legislation to establish a Voluntary Disclosure and Recovery Program.

      The program would permit insurers, employers, or third-par administrators, acting
      within one year of enactment, to identify instances of improper MSP payments and make
      restitution of the appropriate amounts without theat of future Government action with re­
      spect to those claims. The legislation should also provide for a waiver of the existing stat­
      ute of limitations applicable to improper MSP payments. Any insurer norpartdpating in
      this program would be subjecLto a civil penalty of treble damages, plus costs, with respect
      to all improper MSP claims later identified by the government
Establish a national dam system conmining primary insurance information on all
Medicare beneficiaries and their spouses.

The HCFA should continue to pursue legislation requirng the insurer, underwters, and

third pany admnistrtors of health plans to notify HCFA about covered individuals who

are age 65 and over, under age 65 and disabled, or diagnosed as having ESRD, and who

are enrolled in insurance progrs to which Medcare is seconda payer.


Alternatively, this could be embodied into a broader proposal to establish a national clear­
inghouse of information pertaining to medical insurace available to beneficiares of al
Federal and State health benefit programs. Under this proposal HCFA would run claims
through this clearnghouse in order to identify MSP situations.

Propose legislation to require Medicare contractors to match their private health
insurance records with Medicare files.

The HCFA contracts with health insurance companies to adjudicate and pay Medicar
claims. In this capacity, Medicar contrctors have a fiduciar responsibilty to the Fed­
eral government to assure that only appropriate Medicar payments ar made. If contrac­
tors were required to match primar beneficiares to their private business, all such cases
in this inspection should have been identified as a Medcar seconda payer situation.
The HCFA should pursue legislation to reverse the OBRA 89 mandate which prohibits
such data matches.

Propose legislation to require aU insurers to provide their private health insurance dam,
including eligibility and claims payment information, to RCF A.

The MSP identification efforts would be greatly enhanced by requiring all insurers to re­
port their eligibilty and claims information. The matching of Medicare fies with this pri­
vate insurance information could be accomplished by HCFA through a national
clearnghouse. This system would provide HCFA with maximum capability to identify
MSP situations.
                     AGENCY COMMENTS

This report is a final version of a management advisory report (MAR) prepar in June 1990 for
a congressional hearng on the identication and recovery of Medicar seconda payments.
This report was based on data obtaned during our field work at that point in time. We have
completed the review of data obtained durg this study, and have issued this final report.

The HCFA commented in their response to the MAR (see Appendix E) and at an exit conference
covering this final report that they were generally in agrement with the recommendations,
except for the matching of contrctor private health insurance records with Medicare fies.
continue to believe that the matching of records is an importnt fiduciar responsibility of
Medicare contractors who should reference all sources of information to identify primar payer
sources.
                           APPENDIX A

                 MEDICARE SECONDARY PAYER LEGISLATION

TITLE OF         PUBLIC      ENACTMENT   EFFECTIVE
LAW              LAW         DATE        DATE        DESCRIPTION

Omnibus          96- 499     12- 05-     12- 05-     ORA made
Reconciliation                                       Medicare the
Act of 1980                                          secondar payer
(ORA)                                                to automobile
                                                     medcal, no fault
                                                     or any liabilty

                                                     insurance.

Omnibus Budget   97-         08- 13-     10- 01-     OBRAmae
Reconciliation                                       Medcare
Act of 1981                                          seconda payer
(OBRA)                                               for end-stage
                                                     renal disease for
                                                     up to 12 months
                                                     following
                                                     entitlement if the
                                                     person is eligible
                                                     for medical insurce
                                                     under an EGHP.

Tax Equity       97- 248     09-03-      01- 01-     TEFRA made
and Fiscal                                           Medicare
Responsibility                                       benefits
Act of 1982                                          seconda
(TEFRA)	                                             if the employee
                                                     or spouse is age
                                                     65 through 69
                                                     covered by an

                                                     EGHP and the
                                                     employer has at
                                                     least 20 employees.
           -----.-   ..- " --- --- -




                                MEDICARE SECONDARY PAYER LEGISLATION


Deficit                           98- 369    07- 18-    01-01­
     DEFRA
Reduction Act                                                       broadened the
of 1984                                                             definition of
(DEFRA)                                                             working spC

                                                                    by including spouses
                                                                    age 65- 69 of

                                                                    employed individuals
                                                                    under age 65,
                                                                    thereby removing
                                                                    the lower age limt.

Consolidated                       98- 272   04-06-     05-01­      COBRA furter
Omnibus Budget                                                      broadened the
Reconciliation                                                      definition of
Act of 1985
                                                        working aged by
(COBRA)                                                             removing the
                                                                    limitation of age
                                                                    70 and older.

Omnibus                            99- 509   10- 21-    01-01­      OBRA made
Budget                                                              Medcare
Reconciliation                                                      items and
Act of 1986                                                         servIces
(OBRA)                                                              secondar for
                                                                    payment if the
                                                                    disabled beneficiar
                                                                    or spouse
                                                                    is working
                                                                    and covere
                                                                    under a large
                                                                    group health plan.
                 MEDICARE SECONDARY PAYER LEGISLATION


Omnibus          101- 239    12- 19-           12- 19­
   OBRA provided
Budget                                                    a two
Reconciliation                                            year period for
Act of 198?                                               matching
(OBRA)                                                    IRS ta records

                                                          to records of SSA
                                                          and HCFA to identify
                                                          working beneficiares
                                                          and their spouses.

Omnibus          101- 508    11-05-            11- 05­
   OBRA provided
Budget                                                    for the extension
Reconciliation                                            of the transfer
Act of 1990                                               of data from
(OBRA)                                                    IRS and SSA to
                                                          HCFA through
                                                          September 30, 1995.




                                       A- 3

                                           APPENDIX 

                           MEDICARE SECONDARY PAYER BENEFICIARY SURVEY

Survey Methodology, Response Analysis                and      Savings Projections


Survey Methodology

The beneficiares selected for the Medicare seconda payer (MSP) survey were selected using a
simple random sample from the population of all beneficiares purorted to have received
services some tie durng 1987. A one percent sample of all Medcar beneficiares receiving
services under Pan B is maintaned by the Offce of Inspector General, Offce of Evaluation and
Inspections. This me is a subset of the Pan B Medcar Annual Data (BMAD) IV 5 percent
beneficiar sample               file maintaned by HCFA.

For 1987, this 1. percent sample contans 352, 385 separte beneficiar Health Insurce Clai
Numbers (HCN). A subsample of these beneficiares, using sequential sampling, resulte in
  777 HICNs representing beneficiares with Medcar clais. These records were matched
with the Social Security Admnistrtion s (SSA) Master Beneficiar Record (MR) to obtan
demogrphic data, including curent addess, and determe the curnt status of each beneficiar
identified. The following Table 1. 1 gives the results of this matching proess.

                                                      TABLE

                              Results of Medicare BMAD IV Match with SSA MBR.

                               Orginal Number Selected                              777
                               Rairoad Retiment Board Beneficiares                  138
                               Status Indicated as Dead                             070
                               Non- Matching Numbers
                               Final Number of Beneficiares                         371

Railroad Board retiees were deleted from the sample (138 beneficiares) because SSA does not
maintan their data. The 1, 070 beneficiares indicated by SSA to be dead were deleted because
we chose not to identify or to obtain proxy respondents. The 1, 198 mCNs that did not match
with SSA' s MBR represent a problem encountered with the Beneficiar Identification Code
(BIC). We were unable to obtan any addess information on these individuals. Therefore, we
did not contact these individuals. The estimated populations of beneficiares receiving servces,
based upon the subgroups resulting from the sample, ar given in Table 1.




                                                                    .-o,.­
                                                                                              ---.---_. ---- ------




                                            TABLE 1.
                                 Estimated Population Sizes

                                        Sample              Est. Population
        Orginal Sample                       777                 35, 238, 500
        Railroad Retirement Board            138                     718, 800
        Dead                                 070                     563,700
        Non matches                          198                     229, 300
        Survey Contacts                      371                     728,
        Responden ts                         185                 16, 561, 100
        Non Respondents                      186                     166,900

Contacts were made with the remaining 4 371 beneficiares. About 3 weeks later, we followed
up with those beneficiares who were not responsive to our initial efforts to contat them. A tota
    185 beneficiares had been contacted and responded by March 1, 1990. This represents an
of 3,
overal response rate of 72. 9 percent.

Paral demographic and   utilzation information was gathered frm two soures: 1) the BMAD
one percent sample and 2) the Medicare Automated Data Retreval System (MARS), also
maintaned by HCFA. As mentioned earlier, address information came from SSA files. The
MADRS provided information on tota Pan A and Pan B expenditures on behalf of each
beneficiar.

We discussed supplemental medical coverage that an individual might possess as well as any
accidents in which they may have been involved. Where a beneficiar made a positive response,
the specific information was developed by OIG field sta to obtan employer and insurrs names
and addresses. Contacts with employees and insurrs were made to verify whether Medicar
was the primar or seconda payer.

Response Analysis

An importnt consideration in studies of this type is the bias that may be present in the results if
the non respondents and others not contacte ar different than the respondents. To test for the
presence of any bias, we compared responders with non responders, for certain varables, in an
attempt to determine how any observed differences might afect the results. We compared age,
sex , Pan A reimbursed amounts and Pan B allowed amounts.
Table 2. 1 gives the breakdown of the sample by sex.

                                            TABLE 2.

                                           Non                 Non

                Respondents          Respondents           Matching             Dead

 Sex


 Male          1192    37.4         512       43.        434     36.         317    32.
 Female        1993    62.          672       56.        764     63.         752    67.
 Unknown
 Tota          3185                 1186                1198                1070

The non respondents tended to have a higher proporton of males while the beneficiares
determined to be dead have a slightly lower proporton of males, when compared to the
respondents. Those beneficiares who were not contacted for reasons of non match appear to
emulate the respondents with respect to sex. Attached to this appendix, in Table I, is a furer


breakdown of the sub groups, cross tabulatig by age and sex. The average ages ar listed at the
bottom of the tables. For those HICNs that were not matched, no age information was available.

Table I shows that the average age of the respondents is greater than that of the non respondents.
For both of the sexes, the age distrbutions ar skewed towards the lower end of the age
distrbution for the non responders when compar to the responders. As might be expected,
beneficiares determined to have expired were considerably older than both the respondents and
the non respondents. This table would suggest that age is also a factor in determning the
response status of a beneficiar.
Table 2. 2 presents the average Pan A reimbursement and the average Pan B reimbursement, as
determined from the MADRS fie, for each of the sub populations included in the sample.

                                            TABLE

                         Average Reimbursement by Sub Population

                                              Part




                          Total                       Male              Female           Unkn
Population                        Avg                        Avg              Avg

Responses         746        $6159.         286           $7124.     460    $5558.
No Response        140       $3766.31                     $3659.42          $3864.41
Non Match                                                                                1198
Total            1354        $64.           557           $7133.     797    $5962.46

                                              Part




                          Total                      Male               Female           Unkn
Population                        Avg                         Avg                Avg

Responses        3185        $1108.        1192           $1259.33   1993   $1017.
No Response      1184         $437.46       512            $435.      672    $438.
Non Match         1198         $99.         434             $93.      764    $103.
Total            6636         $840.        2429           $1019.     4207    $737.

The unmatched population s Pan A utilization is unkown because they were not found on the
MADRS fie. For Pan B reimbursed amounts, this table shows both male and female unmatched
beneficiares used Pan B services sparngly, approximately 10 percent of what the respondents
use. This is probably why they weren t matched, many of them had no Medicare utilization. We
also compared Pan A and Pan B reimbursed amounts for calenda year 1988. The average Pan
A reimbursed amount for respondents was $6159. 01 and $3766.31 for non respondents, while
the average Pan B reimbursed amount for respondents was $1108.31 and $437.46 for non
respondents. Only 12 percent of non responders used Pan A services, versus 23 percent of
responders.

Table 2. 3 compares respondents, non respondents, dead and unmatched groups by Pan B
allowed amount categories, as determined from the BMA IV beneficiar sample fie. Included
in this table are the results of a contingency table analysis to compare the distrbutions of the
three sub groups, non respondents, non matches and dead beneficiares, with the respondent
category. The Chi-square value assesses to what extent two distrbutions are alike. The larger
the value of the Chi-square, the greater the probabilty that the two distrbutions are different.




                                                     B­
                                              TABLE

                        Distribution of Sampled Beneficiaries

                 By Part B Allowed Amounts and Response Category


Allowed                            Non
Amount           Respondents      Respo'!1ents                 Non Match                  Dead


                           1.7%                        7.3%   158    13.
$1- $99          638      20.           423           35.     850    71.         375      35.
$100- $299       658      20.           321           27.     115                136      12.
$300+            836      57.           354           29.             6.3%       506      47.

Total            185                  1 , 184                 198                069

Chi- Square
(vs Resp)                                  550. 675            3126. 545            238. 956

These results indicate that the thee sub grups not parcipating in the survey ar substantialy
different with respect to their utilization of Pan B services. Whereas approximately 78 percent
of the respondents had allowed services in excess of $100, only 57 percent of the non
respondents, 16 percent of the non matches and 60 percent of the dead beneficiares received
services in excess of this amount. This result is consistent with the data in Table 2. 2. The
conclusion being that responders to this survey tended to use more services, or more expensive
services, than the groups not included in the follow up. 



The results of this analysis would indicate that there ar some significant differences between
those who responded and those beneficiares not parcipating, including the non responders,
those not matched, and those expirng prior to our contact. Differences exist both by sex and
age, and with respect to the dollar amounts expended for services on behal of the beneficiares.
This implies that making projections beyond the responders may not be appropriate and, if made,
must be qualified with appropriate adjustments.

Savings Projections



Of the 3, 185 beneficiar contacts, 280 had positive responses requirng follow-up. Additional
Medicare secondar payer overpayments were found to exist for 34 respondents. These
payments totaled $60, 502. 04. Thus 1. 07 percent of respondents had MSP savings previously
unidentified. Approximately half of the total amount identified occurd under Pan A (49.
percent).

To project these findings to the universe of respondents presents no problem. Projecting our
results to the other subgroups in the original sample, the non respondents, the non matches and
the dead beneficiares, is problematic because of their non representation in our sample. As
shown above, there appears to be substantial differences between these subgroups and the



                                                      B-5
                                                                                                     ..-




respondents. However, it may be reasonably assumed that the population of beneficiares who
did not respond would also have MSP overpayments.

In an attempt to project our results to the non pancipating populations, we have made        cert
assumptions. Since the sample of beneficiares was drwn from the BMA IV Beneficiar
Sample, we arayed the savings by strta    based on Pan B allowed amounts per benefici.:
recorded in this fie. Table 2.3, above, shows the breakdown of the subgrups into this
stratification. Table 3. 1, below, compars the 34 beneficiares with MSP savings to the sample
of respondents.

                                                TABLE 3.
                            Distribution of Sample Respondents

                                 Number in                  Number with     Percent with
             Allowed                Sample                    Savings       Savings
             Amount

                                          1.7                                   1.9
             $1- $99          642       20.                        29.4         1.6
          $100- $299          654       20.

              $300+          1836       57.                        58.          1.1


             TOTAL          3185                                                1.1

It was also noted in Table 2.3, that the subgroups in the sample vared     gratly by these   Pan B
strata. Consequently, the projections developed here        ar based upon thestrata defined by the
Pan B allowed amounts. We assumed that those beneficiares in a given strata, as defined in
Table 3. 1 and regardless of the subgroup in which they were a member, would produce MSP
overpayments equal to the appropriate strta in the respondents subgroup. Implied in this
assumption is that all of the other differences identified earlier with respect to age and sex,
either related to services received, as expressed by the Pan B allowed amount, or unrlated to
MSP savings. For convenience, the overpayment projections are presented by subgroup so that
their contrbution to the total may be determined.

For each strata, an average overpayment per respondent was calculated, with an associated
standard error. This strata specific average was then applied to the other subgroups. Tota
overpayment projections represent the sum of the projections across the strta within a subgroup,
and then across each subgroup. Varances for these estimates were calculated appropriately.

Table I shows sampled beneficiares by age, sex, and response sub group. Table II includes all
classes of beneficiares, Table III, beneficiares with working spouses, Table IV, beneficiares that
are working, and Table V gives savings estimates for beneficiares associated with a disability.




                                                   B - 6

                                                        TABLE I
                          Distribution of Sampled Beneficiaries by Age, Sex
                                           and Response Sub Group

             Respondents                               Non Respondents                          Dead*
           Male      Female                        Male            Female               Male            Female


c:65    152         12.       109                150     38.      172         32.             6.3               1.7

65-     283         23.       421         21.1           25.                  18.4

70-     366         30.       551         27.             16.     118         22.3            15.               10.


75-     223         18.       409         20.             10.                 13.             19.   107         14.3

80-     105                   288         14.                                                 19.   129         17.

85+                 5.3       215         10.                                                 30.   398         53.

Unkn                                             127              144
Total   1192                 1993                385              528                 317           750
Avge                                                                    72.             78.               84.
              70.                   74.            69.
A!!e


* One dead beneficiary was of unknown sex.




                                                          B­
                                      TABLE II

      Calculated Savings Total Overpayments All Classes of Beneficiaries


                              Avg
Allw amt        Resp                                        Est Popln      Est Recov
                             Reimb
                                $1.51                510       275, 585        $416, 030
  $1- $99           638        $23.               12. 727      317,421      $76, 997, 350
$100- $299          658         $0.49              0.412     3,421,416       $1, 676,494
  $300+            1836        $24.                  717       546, 686    $235,421, 275
                    185        $18.                         16, 561, 108   $314 511, 148
Non Resp.
                                $1.                1.510       447, 176        $675,067
  $1- $99           423        $23.               12. 727      199,482      $51, 049,967
$100- $299          321         $0.49                412       669, 110        $817, 864
  $300+             354        $24.                  717       840, 701     $45, 391 684
                    184        $15.                            156, 468     $97, 934 582
Non- Match
                    158         $1.                  510       821, 556         240, 239
  $1- $99           850        $23.               12. 727    4,419, 762    $102 582, 676
$100- $299             115      $0.49                412       597, 968        $293, 004
  $300+                        $24.                  717       389, 979      $9, 616, 882
                       198     $18.                            229, 265    $113, 732, 802
   Dead
                                $1.                  510       270, 385        $408, 180
  $1- $99           375        $23.               12. 727      949, 895     $45, 257, 063
$100- $299             136      $0.49              0.412       707, 162        $346, 509
  $300+             506        $24.                  717       631, 058     $64, 881, 898
                    069        $19.                            558, 501    $110, 893, 650


  Totals               636                                  34,505, 342    $637, 072, 181
                                                              L90%         $437, 798, 254
                                                              U90%         $836, 346, 109
                                                             Precision           31.3%




                                        B-8
 _._     . ---




                                       TABLE 18
 Calculated Savings Total Overpayments Beneficiaries with Working Spouses

                               Avg
Allw       :ut   Resp                                         Est Popln      Est Recov
                              Reimb
                                $1.                1.510         275, 585        $416, 134
  $1- $99           638        $22.46             12. 719 ,      317, 421     $74,509, 284
$100- $299          658         $0.                0.412         421,416       $1, 676,494
   $300+           1836        $21.55              9.364         546, 686    $205, 731,082
                     185       $17 .                          16, 561, 108   $282, 332,993
Non Resp.
                                $1.                1.510         447, 176        $675, 236
   $1- $99          423        $22.               12. 719        199, 482     $49,400, 356
$100- $299          321         $0.49              0.412         669, 110        $817, 864
   $300+            354        $21.55              9.364         840, 701     $39,667, 104
                   1, 184      $14.                              156,468      $90,560, 559
Non- Match
                        158      $1.                 510         821 556       $1, 240, 549
   $1- $99           850        $22.46            12. 719        419, 762     $99, 267, 855
$100- $299              115      $0.49               412         597, 968        $293, 004

       $300+                    $21.55             9.364         389, 979      $8,404 047
                        198     $17.                             229, 265    $109, 205,455
       Dead
                                 $1.               1.510         270, 385        $408, 282
   $1- $99              375     $22.46            12. 719        949, 895     $43, 794 642
$100- $299              136      $0.49             0.412         707, 162        $346, 509
       $300             506     $21.55             9.364         631, 058     $56,699, 307
                        069     $18.                             558, 501    $101, 248,740


       Totals           636                                   34,505, 342    $583, 347,747
                                                                L90%         $388, 500, 515
                                                                U90%         $778, 194 979
                                                               Precision          33.4%




                                         B­
                                     TABLE IV

      Calculated Savings Total Overpayments Working Aged Beneficiaries


                              Avg
Allw amt        Resp                                      :'t Popln    Est Recov
                             Reimb
                               $0.                         275, 585
  $1- $99           638        $0.               0.495     317,421      $2,421 718
$100- $299          658        $0.                        3,421,416
  $300+            1836        $0.               0.366     546, 686     $5, 155, 210

                    185        $0.                       16, 561 108    $7, 576, 928
Non Resp.
                               $0.                         447, 176
  $1- $99           423        $0.                495       199,482     $1, 605, 622
$100- $299          321        $0.                          669, 110
  $300+             354        $0.                366       840, 701      $993, 978
                    184        $0.                          156,468     $2, 599, 600
Non- Match
                    158         $0.                         821, 556
  $1- $99           850         $0.               495     4,419, 762    $3, 226,426
$100- $299          115         $0.                         597, 968
  $300+                         $0.              0.366      389, 979      $210, 589
                    198         $0.                         229, 265    $3,437,015
  Dead
                                $0.                         270, 385
  $1- $99           375         $0.              0.495      949, 895     $1,423,423
$100- $299             136      $0.                         707, 162
   $300             506         $0.              0.366      631, 058     $1,420, 771
                    069         $0.                         558, 501        844 195


  Totals            636                                  34,505, 342   $16, 457,738
                                                           L90%          $8, 856, 625
                                                           U90%         $24 058, 850
                                                          Precision         46.




                                       B­
                                                                 ':,,",..




                                         TABLE V

            Calculated Savings Total Overpayments Disabled Beneficiaries

                                  Avg
Allw amt            Resp                                     Est Popln      Est Recov
                                 Reimb
                                   $0.              O.()OO     275, 585
  $1- $99              638         $6.               410       317,421       $20, 435, 316
$100- $299             658         $0.                        3,421,416
  $300+                1836       $13.32              673      546, 686     $127, 161 856
                        185        $8.                       16, 561 108    $147, 597, 172
Non Resp.
                                   $0.                         447, 176
  $1- $99              423 .       $6.                410       199,482      $13, 548, 806
$100- $299              321        $0.                          669, 110
  $300+                 354       $13.32              673       840, 701     $24 518, 136
                        184        $6.                          156,468      $38, 066, 942
Non- Match
                        158        $0.                          821, 556
  $1- $99               850        $6.              4.410     4,419, 762     $27,225, 734
$100- $299              115        $0.                          597, 968
  $300+                           $13.32              673       389, 979      $5, 194 520
                        198        $5.                          229, 265     $32,420, 254
  Dead
                                   $0.                          270, 385
  $1- $99               375        $6.              4.410       949, 895     $12 011, 353
$100- $299                 136     $0.                          707, 162
   $300                 506       $13.32              673       631 058      $35, 045, 697
                        069        $8.47                        558, 501     $47, 057,050


  Totals                636                                  34,505, 342    $265, 141,418
                                                               L90%         $134 970, 997
                                                               U90%         $395, 311, 840
                                                              Precision          49.




                                           B - 11
                                       ---..----.- ---.---- -   -- -




                               APPENDIX 

                          SUMMARY OF IDENTIFIED MSP CASES



Total Respondents = 3, 185

Total Overpayment Cases = 34


                                                                                                    COST TO
               RESPOND­                                                 OVER.
   CLASS                       CASES                                                  % OF TOTAL    BENEFI
                 ENTS                                                  PAYMENT
                                                                                                     RATIO

                    108                                                $ 1,463. 64*                   .3 TO 1.0
                    105                                  24%           $54, 294.36            90%   10. 2 TO 1.0
                                                                        $ 4 744.                     1.2 TO 1.0
    Totals          280                                  32%           $60, 502.             100%    5.4 TO 1.0



Class IA includes those respondents who indicated they were working for an employer with 20
or more employees during 1988.

Class IB includes those respondents who indicated their spouse worked for an employer with 20
or more employees during 1988.

Class IC includes those respondents who indicated that they were involved in either an
automobile or personal injury accident in 1988.

Every respondent in these three classes was contac d to gather additional employment and
insurance information. This allowed staf to identify and verify actual MSP situations.

*This includes one disabled beneficiary for whom Medicare paid $14.46.




                                                       C­
                                   APPENDIX D

                         CALCULATIONS OF COST-BENEFIT RATIOS

The overall cost ratio was calculated as follows:

          Varable Costs



                  Labor                              $9, 488.
                  Telephone                            $114.
                  Total Varable Costs$                                       602.

          Fixed Costs



                  Rent/ tilities                       $615.
                  Mailing Costs                         085.
                  Total Fixed Costs                                       $1, 700.

                  Total Varable and Fixed Costs                          $11,302.

          Cost- Benefit Ratio

                  Total Overpayment                                      $60, 502.
                  Total Costs                                            $11, 302.

                  Cost- Benefit Ratio                                          5.4:1

The cost benefit of developing responses that were identified as working spouses was calculated
as follows:

          Varable Costs



                  Total Varable Costs                                    $ 9, 602.
                  Total Number of Responses                 280
                     Cost per Response                                       $34.
                  N umber of Spousal Insurance

                    Responses                               105
                  Varable Costs of Spousal Insurance
                    Responses                                             $3, 600.45




                                                D­
                                                 --------




         Fixed Costs

                 Total Fixed Costs                                        $ 1, 700.
                 Total Varable and Fixed Costs                            $ 5, 300.45

          Cost- Benefit Ratio

                 Total Overpayment on Spousal
                    Insurance Responses                                  $54 294.
                 TOtal Costs                                              $ 5, 300.45
                 Cost- Benefit Ratio                                             10. 2:1

The cost benefit of developing responses that were identified as disabled beneficiares was
calculated as follows:

          Varable Costs



                 Total Varable Costs                                       $9, 602.
                 Total Number of Responses                  280
                    Cost per Response                                       $ 34.
                 Number of Disabled Beneficiares
               . Varable Costs of   Beneficiar
                    Case Development                                        $ 891.54

          Fixed Costs



                 Total Fixed Costs                                        $ 1,700.
                 Total Varable and Fixed Costs                            $ 2 591.54

          Cost- Benefit Ratio

                 Total Overpayment on Disabled
                    Beneficiares                                          $28, 393.
                 Total Costs                                               $ 2 591.54

                    Cost- Benefit Ratio                                          11.0:1




                                          __n_
APPENDIX 





    E - 1

                                             =::
                                                                             Health Care

                                                SERVICES                     Financig Administion
          DEPARTMENT OF HEALTH Ii HUMAN

                                            '... t . Ifr                     Memorandum
Date
          Gai R. Wiensky, Ph.D.
            dministrtor
                                    '1t0
Frm

          Management AdVIsory Report "Medicae
                                              Seconda Payer (MP):
Subject
          Unrecovered Funds" (OEI-07- 90-00764)

          The Inpec:or Genera
          Offce of the Secreta


                Thank you for the opponunity to comment on the subject management
                                             thee recommendations the Offce of the
           adviory report The repon restates
                                                   auditS of the MSP progrm and
           Inpec:or Genera (OIG) made in separte                          to each of

           offers thr=::: additional recommendations. Our position with respect
           these recommendations is as foI!ows:

                 OIG recommends that Medicae clai forms be revisedHCF
                                                                   to require
                                                                       A
                 spousal insurance information before the claim is paid. 

                 canC:l   with this recommendation.
                                                                         received
                 OIG recommends that HCFA prioritize the inormation
                                                         cost/enefit ratio. HCFA
                 from SSA according to areas of greatest
                 concurs with thi   recommendation.

                 OIG recommends that HCFA propose legilation to establish a
                                                       Since the initial
                 voluntary disclosure and recovery program            they fail to
                 provision on debarent of Medicare fica agnts if
                 panicipate has be::n dropped    fr the legislative proposal HCF A
                                              proposal
                 support OIG. s legislati
                                                                       national data
                 OIG recommends that HCFA consider establihig a          and their
                 system containing
                                     priarinsurance data on beneficiares
                                                                   determe the
                 spouses. HCF A believes fuher study is needed to
                  impact of thi proposal

Page 2 - Inpector Genera
     OIG recommends that HCFA propose legilation to requie
     Medicae contrctors to match their prite health inurce data
     with Medicae fies HCF A diagrees with      th recommendation,
     because Congres recently pased legilation prohibitig such a
     requiement. We have no reason to believe that Congress has
     changed its position on th isue.

     OIG recommends that HCF A propose legilation    to require an

     inurers to provide their health inurce data includig eligibilty
     and claims payment inormation, to HCFA. We ar unure
     01G.s objeCte. It would appear that   thproposal is intended to
                                             requie inurers to
     give HCFA and OIG stronger authority to
     provide the inormation necessar to determe MSP recoveries. In
     its c ent form we caot agree with   th  recommendation,
     because it would be unecessary burdensome both to employers
     and to HCFA. However, we would be wig to discus with OIG
     how to better frme th proposal to establish such authorities.

      The attached paper discuses each recommendation and provides
additional commentS on statementS in and the metho ology of, the subject
report Please advise us whether you agree with our position on the repon
recommendations at your earli st convenience.


Attachment
                                                         ..



                       Comments of the Health Care Financim!
                          dministrtion on the Offce of the
              JnsDector Genera                       icare Second..
                                             eDort on



                Paver SP:         Unrecovered Funds" OEJ-07- 90-764


    IG Recommendation



                            paid.
  Revie an Medicae claim form to require spousal inurce inormation
  before the clai ca be

  RCF A ResDonse

  RCF A bas inormed OIG         (in response to eIG           Management Adviory Report
, A-09- 89- 00100) that we wi advie the Uniorm Cai Form Task Force of our
  conCUence with thi recommendation to requie spousal inormation on clai
  form. Tne Uniform Cairn Fcr Task Fan: is responsible for makg changes
  to the Medicae claim form.
  OIG Recommendation 2

  Prioritize the information    received from   SSA ac:ording to these are:a          \Tim the

  greatest cost/enefit ratio.
  HCFA ResDonse

  HCF A sta have discussed this issue with eIG sta prior to the issuance of
  report We fully agree with th recommendation. As we develop potential
  MSP sitUations with employers, we wm gie priority to situations that                appear to
  have the greatest payback, inc1u ing spousal case development.

  OIG Recommendation 3

  Propose legilation to establish    a   Volunta Disc10sure and Recovery Progr
  HCF A Resuonse


  OIG made th recommendation in a prior report (AO-12-89-0). Th
  report contained a proviion to debar Medicae contrctors from the progr                         if
  they faed to partcipate in the disclosure progr and if the Federa
  governent identifed improper payments In dicussions with OIG,                 sta
. ,'

 J.
       .
               - -
            Page 2

            agreed to remove the debarent provion. HCFA now support OIG'
            legiIa ive proposal and is workig with OIG to rewrte it
            We believe that the Departent of Health and Human Servces (DHH) and
            the Deparent of Justice (DO!) aleady have authority to anounce a genera
            amesty from the litigation related to violations of the . :ASP provions
            suggest that OIG and HCFA consider proposing that, whie the Volunta
            Disclosure and Recovery Progr is being considered by Congress, DHH and
            DOJ announce a l-year general amnesty progr for those other payers tht
            voluntay repay Medica
            OIG Recommendation 4

            Consider establishig a national data system containg     priar inurance
            inormation on al Medicare    beneficiares and their spouses.

                 HCF A could ac:omplish this by continuing to pursue 1egilation to
                 require insurers, underwters,   and   thd par admitrators of
                 health plans to notif HCF A about covered individual who are:
                 over ae:e 65, under 65 and disabled or diae:osed as havine: End
                                     and who are enrolled in iIsura. c= progrms to
                 Stage Renal Disease ,
                 which Medicare is secondar payer.

                 Altc:Tative!y, this could be absorbed into a broader proposal to
                 esabIih a natioIW clearnghouse of information pertg
                 medica inL'!ncc    avaiable to beneficiares of al   Federa and State
                 health benefit programs. Under this proposal, HCF A would run its ­
                 clais information though ths clearghouse in order to identi
                 MSP situations.

            HCFA ResDonse

            HCFA is curently fializng a FY 1992 legislatie proposal on inurer reportg
            which wi permt us to obtain more timely MSP inormation.

            The propriety of establihig a national clearghouse is cuently under
            discussion at the Budget Summt. We intend to discus       thissue fuer   with
            the Congressional Budget Offce sta to determe potenti Medica-C'l.
            We do, however, believe that further study is necessar to assess its impact on
            the way our progr arc curently admitered.
Page 3


orG Recommendation 

                                                                  their prite
Propose legilation to require Medicare contrctors      to match
health inurance data with Medicae fies.
HCF A Resuonse


Secton 6202( d)   of the Social Security   AI prohibits the Secreta from requig
the contrctors to perform data matches 

                                             agait their priate records as a
              enterig or renewig the contrct. We believe that it would not
condition for
be prudent or praCtcal to propose elimiation of      th prolu"bition. Congress has
dearly stated its position in opposition to such a requiement.

orG Rc:commendation      6

                                                                                data
Propose legislation to require al insurers to provide their health insuranc:
includig eligl"bilty and claims payment information, to HCF A.
HCFA R:suonse

Ths proposal    appear to go beyond    our legislatie proposal to require inurer
reponing disCused under Recommendation 4. In
                                                   addition, read broadly, the
proposal could require the    submission of unnecessar inormation that would be
                                                                s objeCte.
burde:lsome both to inurers and to HCF A. We arc unsure of 01G' authority
We believe this proposal is intended to gie HCFA and CIG strongerthe
to require inurers to provide the information 

                                                  necessar to. determe
                                                                           not need
amountS of Medicare recoveries. If our belief is cOrTect HCF A does
al of   tlUs inormation on an ongoing ,basis.
                                                            entities
We would support legilation that would require inurers, and
responsible for payment under employer group health
                                                     plan (including inurers
and thd par admitrtors), upon request from Medicare, to submit    litations
 inormation pertng               policies, benefit eligibilty, policy
                          to medical
                                                           obligations to make
 and exclusions and payment inormation relatig to their
 priar payment for servces provided to Medicae beneficiares. We are
 wig to discuss with 01G how to better fre th proposal to establih such
 authorities.
,J   Page 4

     General Comments

     BacklZound Statements

     The repon indicates   that, prior to 1980,   Medicae wa   always the primar payer
     for servc:s provided to Medicae beneficiares.   Medicae has always been the
     seconda                                         compensation progrms.
                payer for servces covered by workers '
     Medicae alo    has always been prohibited from payig for servces authoried
     by other F edera   progr such as the Veterans Admitration.
     The repon compares  MSP progr savigs and contractor admitrtie
     exenses for fical year (FY 1987 and 1988. The figures cited  are $ 1. 4 bilon
     in savigs and $115 mIllion in admistrative expenses. The correct figue for
     MSP savigs is S3.3 bilion ($1. 1 bilon for Par A and $.3 bilon for Pan B in
     IT 1987 and $1.4 bilon for Par     A and     S.s bilon for Pan B in 1988).

     Me!hodolc     and Savines Estiates

     OIG sampled beneficiares were enroIIed in Pan B and rec:ived Medicare
     covered se:vic:s in 1987. Ths sample contai at least tWo sourc:s of e:!ors
     which could cause the sample to underreprent MSP sitUations. Firt, some
     beneficiares who are afected by the workig aged and disabilty proviions
     elect not to paridpate in Par B because their employer based coverage is such
     that purchasing Pan B coverage is not cost effectve and because there is no
     penalty for delayed enrollment. Second, some MSP beneficiares were excluded
     because their priar coverage was such that nQ Medicare secondar payments
     were due. There is alo one source of error that could cause beneficiares to
     be falely identifed as MSP beneficiares. Individual enrolled in Par B only
     are not affected by the workig aged or disabilty proviions. Thus
     beneficiares with employer health plan coverage though their
                                                                  own or a
     spouse s employer who are enroIIed in Par B but not covered under Par A
     should not be considered   MSP beneficiares 

     The exclusion of the Railroad Retiement Board (RRB) beneficiares couId
                                                                                   alo
     bias the estiates. We do not know what proporton , of RR
                                                               beneficiares
     have employer heath    pla coverage as a spouse of an employed individua or if
